                 U.S. Department of Agriculture

                    Office of Inspector General
                                Midwest Region




        Audit Report

Controls Over Permits to Import
     Agricultural Products




                         Report No. 33601-0009-Ch
                                     October 2007
                       UNITED STATES DEPARTMENT OF AGRICULTURE
                                  OFFICE OF INSPECTOR GENERAL
                                       Washington, D.C. 20250




DATE:         October 26, 2007

REPLY TO
ATTN OF:      33601-0009-Ch

TO:           Cindy J. Smith
              Administrator
              Animal and Plant Health Inspection Service

ATTN:         William J. Hudnall
              Deputy Administrator
              Marketing and Regulatory Program Business Services

From:         Robert W. Young        /s/
              Assistant Inspector General
               for Audit

Subject:      Controls Over Permits to Import Agricultural Products


This report presents the results of our audit of the Animal and Plant Health Inspection Service’s
(APHIS) controls and procedures over the issuance and monitoring of permits to import
permitted materials into the United States. Our primary emphasis was to assess the corrective
actions taken by APHIS to address the findings and recommendations of our previous audit
report 33601-0004-Ch, “Controls Over Permits to Import Biohazardous Materials Into the United
States,” issued on March 31, 2003.

The APHIS response to the official draft report is included as exhibit A, with excerpts and the
Office of Inspector General’s position incorporated into the Findings and Recommendations
section of the report. Based on the response, we have reached management decision on
Recommendation 6.        Please follow your agency’s internal procedures in forwarding
documentation for final action to the Office of the Chief Financial Officer.

Agency officials did not always include responses from Veterinary Services. This prevented us
from reaching management decisions on Recommendations 1, 5 and 7. The additional
information needed for management decision is outlined in the report sections, OIG Position.

In accordance with Departmental Regulation 1720-1, please provide a reply within 60 days
describing the corrective actions taken and planned, including timeframes for their
implementation. Please note that the regulation requires that management decisions be reached
on all recommendations within 6 months of report issuance.
Executive Summary
Controls Over Permits To Import Agricultural Products

Results in Brief                    This report presents the results of our followup audit of APHIS’ permit
                                    systems for the importation of biohazardous and other regulated materials.
                                    APHIS issues permits to colleges, universities, public and private
                                    laboratories, and others who wish to import regulated materials for research
                                    and diagnostic work. Permits are issued by two APHIS divisions: Plant
                                    Protection and Quarantine (PPQ), which administers permits for plant-related
                                    materials, and Veterinary Services (VS), which administers permits for
                                    animal-related materials.

                                    Our previous audit (33601-4-Ch), issued on March 31, 2003, reported several
                                    weaknesses in both APHIS divisions that issued permits. Among these were
                                    the need to (1) perform inspections of applicant facilities before issuing
                                    import permits, (2) make improvements to PPQ’s computerized system for
                                    tracking the status of active and pending permits, (3) require accountable
                                    documentation to accompany shipments of regulated materials, and
                                    (4) properly dispose of certain hazardous regulated materials when permits
                                    expired.

                                    Our objective on this audit was to determine whether APHIS had adequately
                                    addressed the issues raised in the previous audit, and whether the permit
                                    systems were now safeguarded against potential misuse by individuals
                                    wishing to bring biohazardous or other dangerous materials into the country
                                    for illegal purposes.

                                    The previous audit contained 11 recommendations, all of which had achieved
                                    management decisions 1 by September 30, 2004. We found that although
                                    APHIS had taken some of the corrective actions recommended, other key
                                    recommendations still needed to be implemented. As a result, 4 years after
                                    the issuance of our audit report and nearly 6 years after the September
                                    11 terrorist attacks, APHIS’ permit systems could still be vulnerable to
                                    misuse.

                                    We noted, for instance, that APHIS has not fully implemented the ePermits
                                    system either at Headquarters or at the ports-of-entry, even though agency
                                    officials had originally estimated completion of this critical safeguarding
                                    measure by December 2005. APHIS officials cited various difficulties as the
                                    cause for the delays, and estimated that the process will be completed
                                    sometime in fiscal year (FY) 2008 at the earliest. Until the ePermits system is
                                    fully operational, the agency cannot monitor and track import activity under
1
 Section 7281 of the Inspector General Manual defines management decision as an agency management’s evaluation of the findings, recommendations,
and monetary results in an audit report and its issuance of a proposed decision in response to such findings and recommendations, including actions
determined to be necessary. It must also include the agency’s estimated completion date for each proposed corrective action.

USDA/OIG-A/33601-0009-Ch                                                                                                                    Page i
                   APHIS permits at a nationwide level, or perform analyses to identify trends
                   in permit activity that could signal possible misuse of the permit system. VS,
                   whose permit screening at ports-of-entry is performed by the Department of
                   Homeland Security’s U.S. Customs and Border Protection (CBP), is working
                   with CBP and other agencies on a system that would be able to track permit
                   activity using CBP’s Automated Commercial Environment (ACE) system.
                   VS officials believe the ACE system could provide adequate tracking
                   capabilities. However, the officials stated that they could not provide an
                   estimate of when the necessary arrangements could be made with CBP to use
                   ACE.

                   We noted that PPQ has made progress in improving its screening procedures
                   at the ports-of-entry. [          ] plant inspection stations have facilities to
                   safely open packages containing biohazardous materials. PPQ’s policy is to
                   route biohazardous materials through [          ] locations. Also, even though
                   the ePermits system is not yet capable of monitoring permit activity on a
                   nationwide basis, inspectors at the ports have the ability to access the
                   ePermits system to verify basic information on permit shipments entering the
                   country, such as whether the delivery address on the shipping label matches
                   that of the permit holder in APHIS’ database. However, inspectors have not
                   been provided with written instructions on how to use ePermits to verify
                   permit information on incoming shipments, and neither of the plant
                   inspection stations we visited used it for that purpose. We also noted that
                   PPQ has not instituted controls to ensure that shipments that can only be
                   opened within bio-safety cabinets are routed to [                  ] PPQ plant
                   inspection stations that have this equipment available. VS, which relies on
                   CBP inspectors to screen its incoming shipments, has not provided written
                   policies and procedures to CBP inspectors on how to use ePermits, nor
                   obtained assurance that all CBP inspectors have access to ePermits. Neither
                   VS nor PPQ have made permits (and, in the case of PPQ, mailing labels)
                   accountable documents.

                   Finally, neither PPQ nor VS has implemented an adequate system to perform
                   compliance inspections after permit approval, as agreed to in our prior audit.
                   Officials of both units rely on their field personnel to perform the inspections,
                   but neither has instituted a control to verify that the inspections are
                   performed. As a result, our visits to one PPQ and one VS field office
                   disclosed that neither had been performing compliance inspections.

Recommendations
In Brief           We recommend that PPQ and VS (1) develop timeframes to finalize the
                   implementation of the ePermits system, and incorporate into it the capability
                   to identify permit holders who are required to be inspected, as well as the
                   ability to track permit activity at the ports-of-entry for nationwide analyses,
                   (2) issue instructions, both to PPQ personnel at the plant inspection stations
                   and CBP personnel at other locations, on the procedures to be followed in
USDA/OIG-A/33601-0009-Ch                                                                    Page ii
                   screening incoming regulated materials, (3) make all permits and mailing
                   labels issued to permit holders accountable documents, and (4) strengthen
                   controls, including those to be incorporated into ePermits, to ensure that
                   compliance inspections are performed.

Agency Response    In their response, APHIS officials agreed with the findings and
                   recommendations contained in the report, and provided information on
                   corrective actions currently underway. We have incorporated applicable
                   portions of the response, along with our position, in the Findings and
                   Recommendations section of the report. The agency’s response is included as
                   exhibit A of this report.

OIG Position       Based on the response, we generally agreed with the corrective actions
                   proposed by agency officials, and reached a management decision on
                   Recommendation 6. However, most of the responses only described PPQ’s
                   corrective actions, and did not include actions being taken by VS.
                   Management decisions can be reached on the remaining recommendations
                   when we have received the information specified in the report sections OIG
                   Position.




USDA/OIG-A/33601-0009-Ch                                                              Page iii
Abbreviations Used in This Report

APHIS             Animal and Plant Health Inspection Service
AVIC              Area Veterinarian in Charge
BSL               Biosafety Level
CBP               Customs and Border Protection
FY                Fiscal Year
JPS               Joint Permit System
NCIE              National Center for Import and Export
OCFO              Office of the Chief Financial Officer
OIG               Office of Inspector General
PITS              Permit Issuance Tracking System
PPQ               Plant Protection and Quarantine
SPHD              State Plant Health Director
VMO               Veterinary Medical Officer
VS                Veterinary Services
USDA              United States Department of Agriculture




USDA/OIG-A/33601-0009-Ch                                       Page iv
Table of Contents

Executive Summary .................................................................................................................................i

Abbreviations Used in This Report ......................................................................................................iv

Background and Objectives ................................................................................................................... 1

Findings and Recommendations............................................................................................................ 3

    Section 1. APHIS Still Needs To Complete Corrective Actions From OIG’s Prior Audit Of
                 The Permitting System .............................................................................................. 3

        Finding 1             The ePermits System Has Not Been Fully Implemented ........................................ 3
                                  Recommendation 1 .......................................................................................... 6
                                  Recommendation 2 .......................................................................................... 7
        Finding 2             PPQ Screening Procedures At the Ports Need To Be Strengthened ....................... 8
                                  Recommendation 3 ........................................................................................ 14
                                  Recommendation 4 ........................................................................................ 14
                                  Recommendation 5 ........................................................................................ 15
        Finding 3             Post-Issuance Compliance Inspections of Permit Holders Were Not Being
                              Performed .............................................................................................................. 16
                                  Recommendation 6 ........................................................................................ 18
                                  Recommendation 7 ........................................................................................ 19

Scope and Methodology........................................................................................................................ 20

Exhibit A – Agency Response .............................................................................................................. 22




USDA/OIG-A/33601-0009-Ch                                                                                                                       Page v
Background and Objectives
Background         APHIS was established in 1972 under the authority of the Reorganization
                   Plan No. 2 of 1953. The primary mission of APHIS is to protect the Nation’s
                   animal and plant resources from diseases and pests in order to preserve the
                   marketability of U.S. agricultural products. As part of this, APHIS requires
                   those seeking to import or move animals, animal products, pathogens, plant
                   pests, noxious weeds, and certain agricultural products to apply for permits.
                   The permits must comply with the Plant Protection and Animal Health
                   Protection Acts of 2000, as well as with the Plant Protection and Animal
                   Health Protection Act of 2002. The Plant Protection Act emphasizes the
                   detection, control, eradication, and prevention of the spread of pests and
                   noxious weeds in the United States. The Animal Health Protection Act
                   consolidates all of the animal quarantine and related laws and replaces them
                   with one flexible statutory framework that better equips APHIS to perform its
                   various animal health safeguarding duties. The Bioterrorism Act of 2002
                   requires entities to register transfer agents or toxins deemed a threat to public
                   health and safety with the appropriate Federal Department. Such entities
                   include private, State, and Federal research laboratories as well as universities
                   and vaccine companies that possess and use such toxins.

                   APHIS permit programs are principally administered by Plant Protection and
                   Quarantine (PPQ) and Veterinary Services (VS) at their Headquarters in
                   Riverdale, Maryland. PPQ issues permits for the importation, transit, and
                   domestic movement of plants and plant products, while VS issues permits for
                   the importation of certain animal products. In addition, both units issue
                   permits for the importation and interstate movement of Select Agents, which
                   have the potential to pose severe threats to animal and plant health.

                   Historically, PPQ and VS each maintained their own databases to track
                   permit operations. However, in 2006 they began using a new system,
                   ePermits, which, when fully implemented, will supersede the older systems.
                   PPQ also has 17 plant inspection stations at ports-of-entry across the United
                   States which inspect plants, cuttings, and seeds entering the country, and are
                   also responsible for screening materials entering the country under PPQ
                   permits. Since VS allows products to be brought into the country through any
                   port-of-entry, screening of these products is performed by the Department of
                   Homeland Security’s U.S. Customs and Border Protection (CBP).

                   In 2003, we issued Audit No. 33601-04-Ch, “Controls Over Permits to Import
                   Biohazardous Materials into the United States.” The objective of this audit
                   was to determine whether APHIS’ controls over the permit system were
                   sufficient to prevent it from being used to bring biohazardous or other
                   dangerous materials into the country for illegal purposes. The audit was
                   prompted in part to evaluate safeguards in place to protect against
USDA/OIG-A/33601-0009-Ch                                                                    Page 1
                   bioterrorism and other public health threats in the wake of the September 11,
                   2001 attacks.

                   In response to our audit, APHIS officials agreed to take corrective actions on
                   all recommendations. We reached management decisions with APHIS on all
                   the recommendations on September 30, 2004.

Objectives         The objective of this audit was to assess corrective actions implemented by
                   APHIS to address the conditions found in our 2003 audit of the agency’s
                   permit process. We reviewed all new controls and procedures for (1) tracking
                   the status of active and pending permits, (2) performing site visits for new
                   permit applicants, (3) assessing the adequacy of documentation required for
                   shipments under permits, and (4) ensuring that regulated materials imported
                   under permits are properly disposed of upon permit expiration.




USDA/OIG-A/33601-0009-Ch                                                                  Page 2
Findings and Recommendations
Section 1. APHIS Still Needs To Complete Corrective Actions From OIG’s Prior Audit
Of The Permitting System

                                        In our prior audit report on APHIS’ permit systems issued on March 31,
                                        2003, we made 11 recommendations and reached management decision on all
                                        of them as of September 30, 2004. We found that although APHIS has
                                        implemented many of the corrective actions agreed upon as a result of our
                                        audit, some – such as the ePermits system, [                                  ]
                                        As a result, we believe that APHIS needs to place a greater emphasis on
                                        completing and implementing these corrective actions. In addition, APHIS
                                        officials still need to implement better procedures for screening shipments at
                                        the time they reach ports-of-entry, particularly where those functions are now
                                        being performed by inspectors from CBP. Also, officials need to strengthen
                                        their controls to ensure that compliance inspections are being performed as
                                        required for existing permit holders.




Finding 1                               The ePermits System Has Not Been Fully Implemented

                                        APHIS has not fully implemented the ePermits system at either Headquarters
                                        or the ports-of-entry, even though agency officials’ original timeframes called
                                        for full implementation by December 2005. APHIS officials cited various
                                        difficulties 2 as the cause for the delays, and estimated that ePermits will not
                                        be fully implemented until some time in fiscal year (FY) 2008 at the earliest.
                                        As a result, vulnerabilities reported in our last audit, such as the inability to
                                        efficiently track the status of both permits and individual shipments of
                                        regulated materials entering the country under the permit, may continue to
                                        persist. We believe that APHIS needs to place greater emphasis on
                                        completing and implementing the ePermits system in order to safeguard the
                                        APHIS permit system from misuse.

                                        During our previous audit, we found that APHIS [                            ]
                                        APHIS officials had reported these vulnerabilities to the Deputy Secretary as
                                        security concerns in October 2001. Both PPQ and VS planned to update their
                                        computer systems to be able to perform necessary searches and to track the
                                        status of regulated materials once they enter the country.

                                        When we began this followup audit in September 2006, APHIS officials
                                        informed us that PPQ began using the ePermit system in March 2006, and VS
                                        in July 2006. However, agency officials stated that the system is still
2
    For example, FSIS officials cited delays, early in the development process, in obtaining an IT contractor for ePermits.

USDA/OIG-A/33601-0009-Ch                                                                                                      Page 3
                                     undergoing development and some functions are not expected to be fully
                                     operational until sometime in 2008, as described below.

                                     Database Functions

                                     In our prior audit, we reported that the Joint Permit System (JPS) used by
                                     PPQ was not adequate for the agency’s current needs. For instance, it did not
                                     incorporate controls to ensure the input of complete data, nor did it contain
                                     features that would allow PPQ personnel to perform electronic database
                                     analyses. These analyses would avoid lengthy manual searches to identify
                                     important information such as when permits expired. Finally, it did not
                                     contain applicant inspection data. This was maintained in a separate database,
                                     making it difficult for officials to determine which permit holders had been
                                     inspected. PPQ officials responded that rather than updating the JPS system,
                                     the new ePermits system would handle all of these functions for both PPQ
                                     and VS.

                                     In our review of the ePermits system, we found that, when fully implemented,
                                     it would address many of the deficiencies we reported in our earlier audit.
                                     However, inspection data was still being maintained separately from the
                                     ePermits system. The ePermits system could not provide officials with
                                     information on which permit holders had been inspected or were required to
                                     be inspected before permit issuance. As a result, except for Select Agent
                                     permits 3 , neither PPQ nor VS was able to provide the following information:

                                     •    A listing of permitees inspected over a given time;
                                     •    A listing of import permits which require an inspection before issuance;
                                     •    The number of post-issuance compliance inspections performed during
                                          specified time periods (see Finding 3).

                                     With the assistance of the contractor developing APHIS’ ePermits system,
                                     PPQ officials provided us with a list of 202 active permits which they
                                     believed required inspections before issuance based on the type of pathogens
                                     or other materials authorized by those permits. We selected a sample of 20
                                     import permits from this listing and determined that 19 required inspections
                                     before permit issuance. However, we found that inspections had not been
                                     performed on 7 of these.




3
 Select agent permits are subject to more stringent recordkeeping requirements under the Public Health Security and Bioterrorism Preparedness and
Response Act of 2002, Public Law 107-188, signed June 12, 2002.

USDA/OIG-A/33601-0009-Ch                                                                                                                     Page 4
                   VS officials manually provided a list of 44 permits, again based on the type
                   of materials that were to be imported. We selected a sample of 10 permits, but
                   found that only 3 were actually import permits. Of the three import permits,
                   we found that only two required an inspection. Although the two permit
                   holders had been inspected as required, the inability of VS officials to reliably
                   identify permits needing inspections using the ePermits system indicates the
                   need for enhanced search capabilities.

                   Until the ePermits system is capable of providing comprehensive and reliable
                   listings of permit holders or applicants who are required to have onsite
                   inspections before permit issuance, APHIS officials cannot ensure that
                   inspections are being performed. The issuance of permits to uninspected
                   applicants increases the risk that persons or organizations other than
                   legitimate scientific or other users could obtain permits for illegal purposes.
                   Both PPQ and VS officials stated that it was their intent to add more search
                   features into ePermits, but this had not yet been accomplished. Officials could
                   not provide specific timeframes as to when this capability would be
                   incorporated into the ePermits system.

                   Permit Tracking Capabilities

                   In our prior audit, we reported that neither PPQ nor VS had a system in place
                   to track the number of shipments that enter the country under any individual
                   permit, or to ensure that any incoming shipment is actually associated with a
                   valid permit. In their informational memorandum to the Deputy Secretary
                   dated October 4, 2001, APHIS officials stated that following the events of
                   September 11, 2001, their permit processes were being reviewed with an eye
                   to the potential misuse of the systems to deliberately introduce biological
                   organisms of concern into the United States. PPQ officials acknowledged that
                   “the current database (JPS) will undergo a major redesign to allow for the
                   tracking of permits from issuance to arrival, usage, and final disposition of
                   the pathogen or organism.”

                   In their responses to the audit report, both PPQ and VS officials stated that
                   the ePermits system, which was at that time still in the planning stages, would
                   incorporate the capability to monitor and track permit activity at the ports-of-
                   entry on a nationwide level. An integral part of the system was to be the
                   implementation of bar coding, which would be incorporated into permit
                   documents and/or labels issued to permit holders. The system would use
                   scanners that could instantly read the permit information and compare it with
                   information in APHIS’ database. This could alert inspectors at the ports-of-
                   entry to the possible use of forged or stolen permit documents or labels. In
                   addition, the recording of information on each permit package entering the
                   country would make it possible for APHIS to maintain a central database of
                   permit activity and to identify trends on a nationwide basis that could signal

USDA/OIG-A/33601-0009-Ch                                                                    Page 5
                       the misuse of the permits. APHIS officials agreed to have the system fully
                       implemented by December 2005.

                       At the time of our audit, however, we found that although all of the PPQ plant
                       inspection stations now have access to the ePermits system to perform
                       queries, the bar coding function is not yet operational and there is currently
                       no provision for inspectors to manually input permit information on incoming
                       shipments into the system. PPQ officials, as well as Information Technology
                       personnel working with the contractor to develop the system, stated that no
                       firm timeframes for completion could be given. A demonstration of a
                       prototype bar coding system was conducted in April 2006, but the officials
                       stated that they now estimated that these features would not be implemented
                       at the plant inspection stations until sometime in FY 2008 at the earliest.

                       VS shipments do not utilize government-issued labels, but instead are
                       required to have a copy of the permit itself accompanying the incoming
                       shipment. In APHIS’ response to the prior audit, VS officials stated that they
                       would implement procedures to ensure that the new permit system would
                       incorporate the ability for inspectors at the ports-of-entry to check the validity
                       of incoming shipments. However, during this audit, VS officials stated that
                       they do not plan to use the bar coding system because incoming shipments
                       are inspected by CBP and not by APHIS personnel. The officials stated
                       instead that they are exploring the possibility of tracking permit shipments
                       using CBP’s systems. However, there are no definite plans or timeframes in
                       place for accomplishing this (see Finding 2).

                       The need for a system that could provide adequate security by tracking
                       permits from issuance through arrival, usage, and final disposition was cited
                       by APHIS officials in their memorandum to the Deputy Secretary on October
                       4, 2001. However, the system has not yet been fully implemented after nearly
                       6 years, and APHIS officials did not believe it would be completed until
                       sometime in 2008 at the earliest. In addition, based on APHIS’ plans, only
                       PPQ will be able to perform the tracking functions, even when the system is
                       fully in place. Until APHIS officials have the capability to monitor permit
                       activity at the ports-of-entry, and to ensure that permit applicants are being
                       inspected as required before approval, the permit system is still vulnerable to
                       misuse. To provide reasonable assurances that the permit program is not
                       being misused, PPQ officials need to fully implement ePermits at the earliest
                       possible time, and VS officials need to develop plans to provide the same
                       capabilities in their permit system as are being incorporated into ePermits.

Recommendation 1 Incorporate into ePermits the capability to identify permit holders that require
                 inspections prior to permit issuance, and to identify permit holders on whom
                 inspections have been performed.



USDA/OIG-A/33601-0009-Ch                                                                         Page 6
Agency Response       APHIS officials stated that on March 23, 2007, PPQ implemented a new
                      system in ePermits to identify permit holders that require inspections prior to
                      permit issuance. Specifically, ePermits has been modified to require the entry
                      of a containment facility number into the existing facility evaluation steps in
                      ePermits if a containment facility inspection was required prior to issuance of
                      the permit. The facility number also prints out on the face of the permit when
                      issued. Each 526 (organism) permit either has a containment facility number
                      if applicable, or else an “N/A” if there is no containment facility and no
                      required inspection. Having this field allows queries to be run that identify all
                      permits that required an inspection or identify all permits issued for a
                      particular inspected facility.

                      Officials stated that these capabilities will be further expanded when the
                      entire workflow for containment facility inspection and compliance is
                      incorporated in December 2008. The planned enhancements include a report
                      generator to more efficiently identify permits that required inspections prior
                      to permit issuance, to identify permits where inspections have been
                      performed, and to identify all permits associated with an inspected facility.

OIG Position          We concur with the corrective actions outlined for PPQ. However, the
                      response does not state whether VS permits will also require the entry of a
                      containment facility number or other identifier that can be used to track
                      facilities requiring inspections before permit issuance. To reach a
                      management decision, APHIS officials need to provide information that
                      clarifies this.

Recommendation 2 Develop timeframes for full implementation of the permit tracking
                 capabilities previously proposed, including bar coding for both PPQ and VS
                 permits.

Agency Response       APHIS officials stated that PPQ has now implemented bar coding for both of
                      its shipping label types. The software for printing the bar-coded shipping
                      labels and for tracking the use of shipments imported under PPQ permits
                      became operational in June 2007. Actual printing of the new labels began in
                      July 2007. The software to document the arrival and inspection of imported
                      packages of permitted materials at the PPQ plant inspection stations was
                      incorporated into ePermits on August 15, 2007. Since this deployment the
                      ePermits contractor and Headquarters permit personnel have conducted
                      training sessions for personnel at the 17 plant inspection stations on how to
                      use this system to document package arrivals and inspection results. Bar code
                      scanners were distributed to the plant inspection stations during September
                      2007. APHIS officials anticipate full implementation of the system by
                      December 31, 2007. When the system is fully operational at the field level, it
                      will allow PPQ personnel to identify and refuse entry to any packages
                      arriving with duplicated, re-used, expired, or voided shipping labels. By
                      obtaining reports from the ePermits database, local PPQ officers in the
USDA/OIG-A/33601-0009-Ch                                                                       Page 7
                   destination States of imported packages will also be able to provide
                   subsequent compliance checks on arriving packages and the disposition of the
                   enclosed organisms.

OIG Position       We concur with the corrective actions noted in the agency response.
                   However, the response does not state whether these processes will be
                   formalized in written procedures to personnel at the plant inspection stations.
                   In addition, the response does not address whether the system capabilities
                   noted in the response will also be available to the CBP agricultural inspectors
                   who screen incoming VS permit packages, or whether APHIS will issue
                   policy to CBP regarding their use. To reach management decision, APHIS
                   officials need to provide us with information clarifying this.




Finding 2          PPQ Screening Procedures At the Ports Need To Be
                   Strengthened

                   Since the issuance of our prior audit report in 2003, APHIS has undertaken
                   several corrective actions to address the weaknesses we reported in the
                   screening of incoming regulated materials at ports-of-entry. However, we
                   found that in some respects the inspectors at the ports-of-entry still follow the
                   same processes that we reported in the prior audit. This is due in part to the
                   fact that the [                                     ] as described previously in
                   Finding 1. [                                      ] As a result, APHIS’ permit
                   systems could still be subject to misuse by individuals or organizations whose
                   purpose is to bring biohazardous or other dangerous materials into the United
                   States for illegal purposes.

                   An APHIS informational memorandum to the Deputy Secretary dated
                   October 4, 2001, prepared in response to the September 11 terrorist attacks,
                   noted that among the corrective actions needed to address weaknesses in the
                   permit system were the redesign of PPQ’s permit shipping labels (which had
                   been in use since 1992 and could be easily duplicated because they were not
                   accountable documents) and a more stringent protocol/process for permitting
                   based on tracking, monitoring, reporting, and disposing of permitted material.

                   OIG’s previous audit report on the APHIS permit process, issued in March
                   2003, identified several weaknesses in procedures used at ports-of-entry to
                   screen incoming shipments containing regulated materials. These shipments,
                   which can either be shipped by bonded carriers or, in some instances, hand
                   carried through the port by an incoming passenger, present special difficulties
                   for screeners because some contain dangerous materials that cannot be safely
                   opened for inspection outside of an appropriate containment facility. Other
                   regulated materials may themselves be damaged or contaminated by exposure

USDA/OIG-A/33601-0009-Ch                                                                     Page 8
                                    to air. Even when shipments of regulated materials can be opened for
                                    inspection, there are limitations to what an onsite inspection at a port can
                                    verify. An inspector might identify the presence of materials that are clearly
                                    unrelated to an APHIS permit, but there is no guarantee that a visual
                                    examination would be able to verify the type of pathogen being sent in a
                                    sealed culture dish. Thus, to provide adequate safeguards against the misuse
                                    of permits for illegal purposes, it is important that screeners at the ports have
                                    (1) the ability to open packages containing regulated materials to verify, to
                                    the extent possible, their contents; (2) the ability to verify that an incoming
                                    package is, in fact, associated with a valid permit and is being sent to the
                                    address reflected on the permit; and (3) assurances that the permit holder is a
                                    legitimate user of the material being brought into the United States under
                                    permit (see Finding 3).

                                    In our March 2003 audit of APHIS’ screening procedures, we reported the
                                    following weaknesses:

                                    •    [                        ] This was because prior to September 11, 2001,
                                         the need for such measures was not foreseen. As a result, they depended
                                         on paper copies of permits filed onsite at the PPQ plant inspections,
                                         telephone contacts with permit holders, or APHIS Headquarters. In the
                                         case of VS permits, even onsite paper records were not always available.4

                                    •    Inspectors at most locations had no facilities to allow them to open
                                         incoming packages for inspection, other than PPQ packages bearing
                                         green-and-white labels which indicated that the enclosed materials were
                                         safe for inspection. VS permit packages, and packages bearing PPQ red-
                                         and-white labels, could neither be opened nor X-rayed.

                                    •    PPQ/VS permit forms and PPQ mailing labels that accompany permit
                                         shipments were not accountable, sequentially numbered documents,
                                         making them susceptible to alteration or forgery; moreover, PPQ’s red-
                                         and-white label had been used in its present form since 1992 and there
                                         was no way to determine who might have obtained access to these since
                                         that time. As these were not accountable documents, there was little to
                                         prevent them from being duplicated and used by unauthorized persons.

                                    •    Hand carrying of incoming regulated materials was allowed with few
                                         restrictions, making it possible for individuals to bring in materials and
                                         transport them to locations other than the addresses shown on the permit.

                                    To address these concerns, APHIS officials agreed to take various corrective
                                    actions, which we evaluated as discussed in the following paragraphs.

4
  Unlike PPQ permit shipments, which must enter through one of PPQ’s 17 plant inspection stations, VS permit shipments may come into the United
States through any port-of-entry.

USDA/OIG-A/33601-0009-Ch                                                                                                                  Page 9
                   Plant Protection and Quarantine

                   PPQ continues to route its incoming permit packages through its 17 plant
                   inspection stations located at major ports-of-entry nationwide. In our visits to
                   two of these locations, we noted that improvements had been made since our
                   previous audit. All of the plant inspection stations now have access to both
                   the JPS system and the new ePermits system. To date, [                   ] plant
                   inspection stations have been equipped with bio-safety cabinets that can be
                   used to open packages containing biohazardous regulated materials;
                   according to PPQ officials, all such shipments are supposed to be routed
                   through one of these [            ] The hand-carrying of packages containing
                   regulated materials through ports-of-entry, while not prohibited, was
                   restricted. Persons authorized to hand-carry must now be named in the
                   permit, and the permit holder must contact PPQ to arrange each arrival of a
                   hand-carried regulated material in advance. In addition, inspectors at the ports
                   can now access the ePermits system, which allows them to verify that basic
                   information on incoming permit documents is consistent with data recorded
                   in the ePermits database. For instance, using the ePermits system, an
                   inspector could identify and hold any package with a delivery address that
                   does not match the permit holder’s address of record.

                   In our visits to two plant inspection stations, we noted that in other respects
                   PPQ’s corrective actions are still not complete. Even though the plant
                   inspection stations have access to the ePermits system, we found that PPQ
                   Headquarters had not provided them with instructions for using ePermits to
                   check the validity of the labels and permit documentation for incoming
                   regulated materials. We found that neither of the two plant inspection stations
                   we visited was using the ePermit system because they were not aware that
                   they were required to do so. At one plant inspection station, for instance, the
                   only employee who had access to the system stated that he used it for
                   eAuthentication of permit applicants, but not for permit screening. For older
                   permits recorded in the JPS system, employees utilized that system to verify
                   permit information. However, for all permits recorded in ePermits, inspectors
                   were not using the system because they had not received instructions to do so.

                   PPQ had made some improvements in the controls over permit labels since
                   our last audit. As an example, the permit number is now printed on each label
                   before issuance to the permit holder, instead of being handwritten; also, a
                   manual tracking system is now used to record how many permit labels are
                   sent to each permit holder. Labels sent out to each permit holder are
                   numbered in series (1 of 10, 2 of 10, etc.), and when the permits expire, the
                   permit holders are required to send unused labels back to PPQ. However, we
                   found that out of the 20 permits we reviewed under Finding 1, only one
                   permit label was being tracked under this manual system. PPQ officials
                   agreed that better oversight was needed in this area.
USDA/OIG-A/33601-0009-Ch                                                                  Page 10
                   Without the bar coding system that was planned for implementation by 2005,
                   the PPQ labels could still be duplicated and/or altered, as could the permits
                   themselves. Also, there is no guarantee that permit holders will turn in unused
                   labels at the expiration of their permits. The use of tamper-proof paper to
                   prevent unauthorized copying of permits and labels, which PPQ officials
                   agreed to as part of the management decision process from the prior audit,
                   was never adopted because APHIS officials were planning to implement this
                   in conjunction with the bar coding system.

                   We also found that although regulated materials marked with red-and-white
                   PPQ labels can only be opened at the [               ] plant inspection stations
                   equipped with bio-safety cabinets, 2 of 20 red-and-white label permits we
                   reviewed were allowed to enter the United States through plant inspection
                   stations that did not have this equipment. A PPQ official stated that when
                   plant inspection stations that do not have bio-safety cabinets receive regulated
                   material packages with red-and-white labels, they are instructed to send these
                   to the nearest plant inspection station that is able to open them. However,
                   these instructions have not been incorporated into any of APHIS’ online
                   manuals, or sent out as a written instruction. Even a plant inspection station
                   that has a bio-safety cabinet is not expected to open more than a sample of
                   packages entering the country under permit. However, without a control in
                   place to ensure that all regulated materials marked with red-and-white labels
                   enter the country through plant inspection stations that are equipped with bio-
                   safety cabinets, there is reduced assurance that they are subject to being
                   opened. Also, without a bar-coding system to track the status of incoming
                   shipments, PPQ officials cannot readily monitor whether such packages are
                   being screened by plant inspection stations that are properly equipped to
                   handle them.

                   PPQ officials stated that their planned corrective actions will, when
                   completed, address these concerns through the full implementation and use of
                   ePermits, and also of the bar coding system associated with it. However,
                   implementation of these safeguards is now more than a year behind the
                   original schedule, and officials stated that full implementation of ePermits
                   will not take place until sometime in FY 2008.

                   Veterinary Services

                   Prior to the transition of inspection responsibilities at the ports-of-entry to
                   CBP in 2003, VS – which did not have frontline inspection personnel at these
                   locations – depended on PPQ to screen regulated materials arriving under VS
                   permits. Following the transition, this duty was assumed by CBP, even at
                   ports where a PPQ plant inspection station is located. VS permits for high-
                   consequence pathogens were restricted to 11 ports-of-entry specified on the

USDA/OIG-A/33601-0009-Ch                                                                  Page 11
                                    permits, but other permits carried no restrictions and may enter through any
                                    port.

                                    VS officials, during the management decision process for the prior audit,
                                    maintained that, unlike PPQ, it was not feasible for them to restrict their
                                    permit shipments to enter the country only through the plant inspection
                                    stations. Instead, they agreed that CBP inspectors would receive the same
                                    instructions, and have the same system access, as PPQ inspectors at the plant
                                    inspection stations so that their screening of incoming regulated materials
                                    could be equivalent to that of PPQ. However, we found that this has not yet
                                    been accomplished.

                                    The most recent guidance provided to CBP on the handling of VS permits 5 is
                                    the Animal Products Manual which instructs CBP inspectors to use the
                                    QPITS system (an internet-accessible version of VS’ PITS system) rather
                                    than ePermits. VS began entering new permits into ePermits in July 2006, and
                                    since VS permits are only valid for 1 year, the last permits still residing in
                                    QPITS are scheduled to expire in July 2007. The manual has not been
                                    updated as of May 2007 to instruct CBP on the use of ePermits. APHIS
                                    officials have not been able to provide us with the timeframes when they
                                    anticipate the updates to be completed.

                                    In addition, VS officials stated that CBP personnel must first obtain
                                    eAuthentication and request authorization from APHIS to access the ePermits
                                    system. However, VS officials were unable to provide assurance that this has
                                    been accomplished. Records provided by VS showed that as of May 2007,
                                    1,507 CBP personnel at 70 ports-of-entry had received access to the ePermits
                                    system. However, CBP operates in 317 ports-of-entry nationwide, any of
                                    which could potentially receive shipments entering the United States under
                                    VS permits. Therefore, VS has no way of assuring that inspectors have the
                                    capability to perform online verification of regulated materials entering the
                                    United States under VS permits. Even for inspectors that do have ePermits
                                    access, the absence of written procedures on how to perform screening
                                    functions or to use ePermits provides little assurance that these regulated
                                    materials are being adequately screened.

                                    Although VS officials had previously agreed with the need for better tracking
                                    of regulated materials, officials stated during this audit that they do not plan
                                    to adopt the bar coding system being developed for use by PPQ. Instead, they
                                    stated that they are exploring the possibility of accomplishing the same result
                                    using CBP’s Automated Commercial Environment/International Trade Data
                                    System (ACE/ITDS). However, VS officials could not provide specific data
                                    on how the tracking would be accomplished. They also did not know at this
                                    point whether an accountable permit or other documentation would be

5
    APHIS Animal Products Manual, dated January 2007

USDA/OIG-A/33601-0009-Ch                                                                                   Page 12
                   required to accompany each shipment. When asked, the officials could not
                   provide timeframes as to when these proposed tracking capabilities would be
                   implemented, since this would depend in large part upon CBP. Because of the
                   risks associated with allowing packages marked as containing regulated
                   materials to enter the United States without proper controls, we consider this
                   to be a matter of immediate concern.

                   Finally, VS officials could not provide assurances that CBP inspectors had
                   the necessary facilities available at port locations to open shipments entering
                   the United States under VS permits. Although APHIS officials noted that
                   CBP has the authority to open any package that enters the country, VS
                   permits requiring containment levels of BSL-2 (Biosafety Level) or higher
                   carry restrictions – printed on the face of the permit – that prohibit opening
                   the package outside of an appropriate containment facility.

                   VS officials stated that they did not believe they could require that CBP
                   inspectors obtain the necessary authorization to access ePermits. However,
                   under the Memorandum of Agreement signed by the Secretaries of
                   Agriculture and Homeland Security in February 2003, CBP is required to
                   comply with APHIS policy on agricultural inspections, including instructions
                   provided in the Animal Products Manual and other APHIS-issued manuals.
                   APHIS, in turn, has the responsibility for providing CBP with the necessary
                   instructions and guidance, and obtaining assurances through the Joint Agency
                   Quality Assurance Program or other means that CBP is in compliance.

                   As we reported in 2003, APHIS needs to reduce the vulnerability of its permit
                   systems in relation to the importing of biohazardous or other dangerous
                   substances for illegal purposes. As a result of our previous audit, APHIS
                   officials agreed to develop an automated system using accountable permit
                   forms and labels, along with bar coding to allow inspectors to quickly verify
                   permit documentation and to open and examine incoming regulated materials
                   on at least a random basis. Although it was originally expected that these
                   would be in place before the end of 2005, some of these have not been
                   implemented. PPQ has implemented some of the needed measures, but needs
                   to ensure that its personnel at the plant inspections stations have been
                   provided with the necessary written guidance to effectively and efficiently
                   screen incoming regulated materials. In addition, permit documents and
                   labels that accompany packages entering the country need to be sequentially
                   numbered and printed on tamper-proof paper to prevent copying. VS, whether
                   through ePermits or through ACE/ITDS in conjunction with CBP, needs to
                   provide the same system capability and controls to ensure that CBP
                   inspectors have the ability to adequately screen incoming regulated materials.
                   In addition, VS needs to obtain the necessary assurances of CBP compliance
                   with APHIS inspection and screening policies for permits.



USDA/OIG-A/33601-0009-Ch                                                                 Page 13
Recommendation 3 Issue instructions to PPQ personnel at the plant inspection stations for
                 screening incoming regulated materials, including the use of the ePermits
                 system.

Agency Response       APHIS officials responded that PPQ Headquarters personnel provided
                      ePermit training to plant inspection station employees on August 8 and 23,
                      2007. The training covered the following topics: (1) how to obtain a plant
                      inspection station inspector role in ePermits; (2) how to hook up the new bar
                      code scanner; (3) how to configure the scanner; (4) how to use the scanner;
                      (5) how to capture inspection information in ePermits; and (6) how to use
                      ePermits to get permit information. The training was delivered remotely by
                      teleconference and by a webinar which has been recorded and made available
                      to plant inspection station personnel via the APHIS intranet.

OIG Position          We believe that the training provided by PPQ would address some of the
                      issues that we raised in this finding, particularly the need for employees at the
                      plant inspection stations to be knowledgeable in how to use the ePermits
                      system to screen incoming permit packages. However, it does not address the
                      issue of whether red-and-white labeled permit packages would be restricted to
                      entering at plant inspection stations that are equipped with bio-safety
                      cabinets. To reach a management decision, APHIS officials need to provide
                      additional information to clarify this.

Recommendation 4 Issue instructions to CBP personnel, equivalent to those issued to PPQ
                 personnel addressing the screening of incoming packages under VS permits.
                 In addition, obtain assurances that all CBP personnel performing such
                 screening have access to the ePermits system.

Agency Response       Officials responded that APHIS-VS provides to APHIS-PPQ and to CBP
                      guidance on what is required for screening of imported products by several
                      different methods. The Animal Products Manual and the Manual of
                      Agricultural Clearance (MAC) provides them with the port procedures for
                      different commodities. In addition, CBP is provided with alerts and any new
                      regulatory requirements when they are available. APHIS will provide CBP
                      with the requirements. However, CBP establishes the procedural logistics as
                      to how they will meet the requirements in consultation with APHIS.

OIG Position          While we agree that CBP is responsible for day-to-day implementation of the
                      agricultural inspection programs, APHIS retains the responsibility for issuing
                      the policies that CBP follows in order to accomplish this. As noted in our
                      finding, the most recent guidance contained in the MAC Manual was not up
                      to date; as of May 2007, it contained no references to the use of the ePermits
                      system. To reach a management decision, APHIS-VS needs to provide
                      additional information, including timeframes, regarding updates to the MAC
                      or other online manuals to address the recommendation. In addition, the

USDA/OIG-A/33601-0009-Ch                                                                      Page 14
                      response needs to describe APHIS’ actions to provide assurances that CBP
                      personnel who need to use ePermits have received access to the system.

Recommendation 5 Take steps to ensure that all permits and labels that accompany shipments to
                 the ports of entry are sequentially numbered and printed on tamper-proof
                 paper.

Agency Response       APHIS officials noted that PPQ’s mailing labels already use a sequential
                      numbering system, and that an interim tracking system has been established.
                      Under the new system described in the response to Recommendation 2, bar-
                      coded labels generated through ePermits are voided in the system when they
                      enter the country and are scanned, thus providing a control against
                      unauthorized duplication. When a permit is cancelled in the system, all labels
                      associated with that permit would be voided. APHIS officials stated in the
                      response to Recommendation 2 that the system would be in place by
                      December 2007.

                      With regard to tamper-proof paper, officials stated that due to advances in
                      technology they have concluded that the use of tamper-proof paper would be
                      unnecessary in conjunction with the system described above.

OIG Response          We concur with the corrective actions described for PPQ, and also accept
                      APHIS officials’ conclusion regarding tamper-proof paper for PPQ mailing
                      labels. However, the response does not address the actions to be taken by VS,
                      whose current policy allows permit holders to bring in packages using
                      photocopies of the original permit. Thus, while VS’ permits are themselves
                      accountable documents, there is no limit to the number of identical copies
                      that could be used to bring packages in through various ports-of-entry. To
                      reach a management decision, APHIS officials need to provide information
                      on the corrective actions to be taken with regard to VS permit shipments.




USDA/OIG-A/33601-0009-Ch                                                                    Page 15
Finding 3                           Post-Issuance Compliance Inspections of Permit Holders Were
                                    Not Being Performed

                                    Neither VS nor PPQ could ensure that compliance inspections were being
                                    performed at permit holders’ facilities subsequent to permit issuance. While
                                    both had delegated responsibility for performing such inspections to their
                                    offices in the field, neither had implemented controls to assure that they were
                                    in fact being performed. As a result, APHIS officials have reduced assurance
                                    that permit conditions and restrictions are being met on an ongoing basis by
                                    permit holders.

                                    In our previous audit, we reported that neither PPQ nor VS were making
                                    onsite inspections before permit approval to applicants whom they considered
                                    to be low-risk. However, when making these determinations, officials of both
                                    PPQ and VS assessed risk based solely on the risk-level associated with the
                                    type of pathogen or other material listed on the permit applications. Thus,
                                    PPQ only performed visits to applicants who would require containment
                                    facilities for the materials they proposed to import, and the onsite visits were
                                    primarily geared toward assessing the adequacy of those facilities. VS visits
                                    were likewise geared to evaluating facilities, and were, therefore, limited to
                                    applicants whose permits would require them to have containment facilities
                                    rated at BSL-2 6 level or higher.

                                    To address these conditions, both PPQ and VS agreed to amend their policies
                                    for conducting onsite visits; although neither agreed to perform additional
                                    visits before issuing permits, both agreed with the need for performing
                                    compliance visits to existing permit holders during the time period that their
                                    permits were active. However, we found that neither had fully implemented
                                    the corrective actions they proposed.

                                           Plant Protection and Quarantine

                                           In the agency response to our prior audit, PPQ officials stated that they
                                           would implement a system for conducting follow-up inspections of all
                                           facilities currently holding permits when they request renewals or
                                           amendments. In addition, PPQ would randomly inspect those facilities
                                           that did not request renewals at a rate which would have all such
                                           facilities inspected within 3 years (beginning before the end of FY 2003).



6
  Biosafety Level (BSL) ratings are described in Health and Human Services’ (HHS) Biosafety Handbook. Biosafety levels are rated from BSL-1, for
organisms that generally do not cause disease, to BSL-4 for high-risk, life-threatening diseases.

USDA/OIG-A/33601-0009-Ch                                                                                                                 Page 16
                       In this audit, PPQ Headquarters officials stated that the inspections are
                       being performed by staff at the PPQ field offices nationwide, under the
                       direction of the regional offices and the State Plant Health Directors
                       (SPHD). However, a PPQ Headquarters official stated that since each
                       SPHD receives electronic copies of permits issued within their own
                       State, there is no need for PPQ Headquarters to notify them of where and
                       when they are to perform these inspections. The official stated that some
                       SPHDs require inspections of all facilities holding high risk organisms
                       on an annual basis, while others perform them on a less frequent basis.
                       PPQ Headquarters would not become involved in setting up inspections
                       unless officials were informed of a problem that they needed to resolve.

                       A PPQ official stated that the only policy or procedure statement
                       provided to the field on inspections is contained in the agency’s
                       Safeguards Guidelines for Containment of Plant Pests Under Permit
                       document dated June 1983. The PPQ official stated that the SPHDs still
                       use these guidelines. Based on our review of the guidelines, they only
                       mentioned that the field was to perform periodic inspections. The
                       guidelines did not specifically mention post-issuance compliance visits,
                       nor did the guidelines ensure that field personnel were performing
                       enough inspections to meet the 3-year timeframe agreed to in the
                       management decision from our prior audit.

                       We also found that PPQ Headquarters does not keep files on the
                       compliance inspections, nor is there a requirement or a specific
                       mechanism for field personnel to inform Headquarters that inspections
                       have been completed. In April 2007, we conducted a field visit to one
                       PPQ field office to determine if they were performing compliance checks
                       on any containment facilities. A PPQ safeguarding specialist stated that
                       compliance inspections on containment facilities are not performed
                       except for Soil permits. The officials we interviewed also stated they
                       were unaware of the 1983 Safeguarding Guidelines and would only
                       perform inspections when instructed to do so by Headquarters.

                       Veterinary Services

                       In our prior audit we recommended that VS develop written procedures
                       governing the inspections of its facilities. In the agency response, VS
                       officials stated that they had developed and implemented a system to
                       randomly select, on a yearly basis, [                    ]

                       In reviewing VS records in the PITS system, we found that VS
                       Headquarters officials had performed the agreed-upon [           ]
                       They also had a procedure in place instructing the field Area
                       Veterinarians in Charge (AVIC) to inspect selected permit holders.

USDA/OIG-A/33601-0009-Ch                                                                Page 17
                        However, we found that they could not always assure that these
                        inspections were actually being performed.

                        We reviewed a report for the period January 2005 through October
                        2006 from VS’ PITS database that identified 30 importation permits
                        scheduled for compliance visits. We found that VS’ files at Headquarters
                        contained records for only four completed inspections. A VS official
                        confirmed that Headquarters does not always receive confirmation that
                        the inspections have been performed, and that it does not do further
                        followup in these cases.

                        Of the 30 permit holders selected, we identified 3 that had been sent to
                        the Area Veterinary Office in Sacramento, California for compliance
                        inspections. We followed up on these but found that compliance
                        inspections had not been performed at any of the three permit holders.
                        The VS area office official stated that compliance inspections had not
                        been performed because the office had not received any guidance from
                        VS Headquarters instructing them to perform the inspections.

                        According to VS Headquarters, permits requiring inspections are
                        identified by a stamp applied to the permit itself. The stamp instructs
                        field personnel to “perform a compliance check within 3 to 6 months.”
                        Although the VS area official we spoke with had performed such
                        inspections in the past, [                     ] and did not believe that
                        inspections had been performed on the three stamped permits included in
                        our sample. The official further explained that the relocation of the VS
                        office and the departure of a secretary charged with tracking inspection
                        requests had created a backlog of requests.

                    APHIS Headquarters officials stated that all inspection records will be moved
                    into the ePermits system in the fall 2007, and will be housed in a single
                    record for each permit/facility. The officials stated that when this more
                    efficient, paperless process is incorporated, records on both pre-issuance and
                    post-issuance compliance inspections will be accessible through ePermits and
                    it will be possible to track them from any location having ePermits access. In
                    the interim, however, PPQ and VS need to ensure that they are providing
                    adequate instructions and oversight to their field personnel to ensure that
                    these inspections are being performed.

Recommendation 6 Incorporate the necessary features into ePermits to allow PPQ and VS
                 Headquarters and field locations to communicate electronically the
                 information on which permit holders are to be visited for compliance
                 inspections, and what inspections have actually been performed.




USDA/OIG-A/33601-0009-Ch                                                                  Page 18
Agency Response        APHIS officials stated that this work flow has been designed for ePermits and
                       is expected to be implemented by December 31, 2008. During 2007, APHIS
                       staff met with personnel from both of the APHIS regional offices and
                       discussed the finalization of the process in ePermits for initial and compliance
                       inspections. As a result of these meetings, the ePermits workflow is now
                       being finalized.

OIG Position           We accept management decision on this recommendation. Final action can be
                       achieved when APHIS officials provide documentation to the Office of the
                       Chief Financial Officer to substantiate that the necessary features have been
                       incorporated into the ePermits system.

Recommendation 7 Develop interim procedures to provide assurances that field personnel are
                 receiving written notifications of the compliance inspections they are required
                 to perform, and that they provide written notification to PQ/VS Headquarters
                 that the inspections have been completed.

Agency Response        APHIS officials stated that as of October 9, 2007, new procedures had been
                       issued by PPQ to address the recommendation. These were e-mailed to
                       Headquarters staff on October 4, and will become effective on November 1,
                       2007. Under these procedures, containment scientists and evaluation
                       scientists will determine the interval for followup compliance inspections,
                       then will send requests for followup inspections to the field using the Lotus
                       Notes Containment Facility inbox. The containment scientists will also be
                       responsible for requesting reports on the followup inspections from the field;
                       these reports will be evaluated by compliance officers, who will also
                       document the findings in the permit record and coordinate with containment
                       scientists to determine how to proceed.

OIG Position           We concur with the corrective actions taken for PPQ. However, similar
                       conditions were also noted with VS, and the response does not address their
                       compliance inspections. To reach a management decision, APHIS officials
                       need to describe any corrective actions being taken by VS.




USDA/OIG-A/33601-0009-Ch                                                                      Page 19
Scope and Methodology
                   We performed our fieldwork at the APHIS Headquarters Office located in
                   Riverdale, Maryland. We visited the National Plant Germplasm Center in
                   Beltsville, Maryland, and the San Francisco Plant Inspection Station in San
                   Francisco, California. We also visited the PPQ California Statewide work unit
                   and the Veterinary Services Area Office in Sacramento, California. Our audit
                   covered fiscal years 2006 and 2007 and other periods when deemed
                   necessary. We performed our field work from September 2006 through May
                   2007.

                   To accomplish the audit objectives, we

                   •   Reviewed policies and procedures governing the controls over APHIS
                       permits. In addition, we reviewed the ePermits system to assess whether
                       the system has the capabilities to identify permit holders that have been
                       inspected before permit issuance;

                   •   Interviewed responsible APHIS personnel both at Headquarters and at
                       field locations;

                   •   Visited one PPQ work unit and one VS area office, where we interviewed
                       APHIS officials and reviewed pertinent inspection records; and

                   •   Visited [       ] PPQ plant inspection stations, in Beltsville, Maryland,
                       and San Francisco, California.

                   At APHIS Headquarters, we also reviewed permit files in the new ePermits
                   database for PPQ and VS, as well as permits in VS’ older PITS database.
                   These reviews were to determine whether facility and/or compliance
                   inspections had been performed as required, as follows:

                   •   [ ] VS permits out of [ ] processed since VS began entering permit
                       data into the system in July 2006;

                   •   [ ] PPQ permits out of [ ] processed since PPQ began to input permit
                       information into the system in March 2006 (Finding 1);

                   •   [ ] VS importation permits out of [     ] entered into the PITS database
                       between March and October 2006;

                   •   We also judgmentally selected three existing permit holders from the
                       PITS database as part of our review of facility inspections.

USDA/OIG-A/33601-0009-Ch                                                                Page 20
                   We reviewed all six currently-active Select Agent permits (four for PPQ and
                   two for VS) to determine if APHIS had effective controls in approving import
                   permits in the Agricultural Select Agent program.

                   We conducted the audit in accordance with Government Auditing Standards
                   established by the Comptroller General of the United States.




USDA/OIG-A/33601-0009-Ch                                                               Page 21
Exhibit A – Agency Response
                              Exhibit A – Page 1 of 6




USDA/OIG-A/33601-0009-Ch                   Page 22
Exhibit A – Agency Response
                              Exhibit A – Page 2 of 6




USDA/OIG-A/33601-0009-Ch                   Page 23
Exhibit A – Agency Response
                              Exhibit A – Page 3 of 6




USDA/OIG-A/33601-0009-Ch                   Page 24
Exhibit A – Agency Response
                              Exhibit A – Page 4 of 6




USDA/OIG-A/33601-0009-Ch                   Page 25
Exhibit A – Agency Response
                              Exhibit A – Page 5 of 6




USDA/OIG-A/33601-0009-Ch                   Page 26
Exhibit A – Agency Response
                              Exhibit A – Page 6 of 6




USDA/OIG-A/33601-0009-Ch                   Page 27
